                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF MVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

     Case Number: I08030023
                                                                                  11          Page 1 of 1



           This investigation was initiated based upon information provided that a Principal investigatori
           (PI) at a ~niversitf was dismissed fiom the University due to improper conduct and that NSF
           grant funds may have been misappropriated. The University responded to OIG's request for
           information and explained that the PI was found to have violated University policies and he
           resigned3. The University also assured OIG that NSF grant funds were not misappropriated.

           Since there was no evidence found of fraud or wrongdoing, no further investigative efforts are
           required in this case.

           Accordingly, this case is closed




I'
 NSF OIG Form 2 (1 1/02)
